HHS/OIG, Audit -"Review of Medical and Ancillary Claims Made to Medicaid for Aged 21 to 64 Year Old Residents of State Operated Psychiatric Hospitals within New York State,"(A-02-01-01014)
Department of Health
and Human Services
"Review of Medical and Ancillary Claims Made to Medicaid for Aged 21 to 64 Year Old Residents of State Operated
Psychiatric Hospitals within New York State," (A-02-01-01014)
July 30, 2002
Complete
Text of Report is available in PDF format (945 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls were in place to effectively preclude New York State (NYS) from
claiming federal financial participation (FFP) under the Medicaid program for medical and ancillary services (except inpatient
acute care hospital services) made on behalf of 21 to 64 year old residents of State operated psychiatric hospitals (SOPH)
that are institutions for mental diseases.  We found that NYS had implemented controls that were generally adequate
to prevent FFP from being claimed for medical and ancillary services provided to such residents of SOPHs.  However,
we identified a small number of medical and ancillary services that were incorrectly claimed for FFP.  Since controls
were generally adequate, our report did not make any procedural recommendations.  However, we recommended a financial
adjustment of $84,077 for FFP that was improperly claimed.